UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 21-1551
Michael Andrew Johnson
Appellant
v.

Wendy Kelley, Director, Arkansas Department of Correction, et al.
Appellees

Appeal from U.S. District Court for the Eastern District of Arkansas - Pine Bluff
(5:19-cv-00242-BRW)
ORDER
The petition for rehearing by the panel is denied.
September 09, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
Is/ Michael E. Gans

Appellate Case: 21-1551

Page: 1

Date Filed: 09/09/2021 Entry ID: 5074358

QSmteb ^>tates( Court of appeals?
Jfor the (Eighth Circuit

No. 21-1551

Michael Andrew Johnson
Plaintiff - Appellant
v.
Wendy Kelley, Director, Arkansas Department of Correction; Byron Brown,
Lieutenant, Wrightsville Unit, Department of Correction (originally named as
Brown); Jada Lawrence, Assistant to Director Kelley, Arkansas Department of
Correction (originally named as Jada Lawerence); Lyn Bennett, Assistant to
Director Kelley, Arkansas Department of Correction; Mindy Shell, Assistant to
Director Kelley, Arkansas Department of Correction
Defendants - Appellees

Appeal from United States District Court
for the Eastern District of Arkansas - Pine Bluff

Submitted: August 4, 2021
Filed: August 9, 2021
[Unpublished]

Before SHEPHERD, GRASZ, and STRAS, Circuit Judges.

PER CURIAM.

Appellate Case: 21-1551

Page: 1

Date Filed: 08/09/2021 Entry ID: 5063336

Arkansas prisoner Michael Johnson appeals the district court’s1 adverse grant
of summary judgment on his claim that prison officials were deliberately indifferent
by failing to protect him from an assault by fellow prisoners. After careful de novo
review of the record and the parties’ arguments on appeal, we conclude the district
court properly granted summary judgment. See Holden v. Hirner, 663 F.3d 336,340
(8th Cir. 2011) (standard of review); see also Patterson v. Kelley, 902 F.3d 845, 851
(8th Cir. 2018) (noting an inmate must show he faced substantial risk of harm and a
prison official was deliberately indifferent to that risk to prevail on failure-to-protect
claim). Accordingly, we affirm. See 8th Cir. R. 47B.

‘The Honorable Billy Roy Wilson, United States District Judge for the Eastern
District of Arkansas, adopting the findings and recommendations of the Honorable
Joe J. Volpe, United States Magistrate Judge for the Eastern District of Arkansas.
-2-

Appellate Case: 21-1551

Page: 2

Date Filed: 08/09/2021 Entry ID: 5063336

Case 5:19-cv-00242-BRW Document 196 Filed 03/02/21 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
PLAINTIFF

MICHAEL ANDREW JOHNSON
ADC #110504
VS.

5:19-CV-00242-BRW-JJV

WENDY KELLEY, et al.

DEFENDANTS
ORDER

I have reviewed the Proposed Findings and Recommended Disposition submitted by
United States Magistrate Judge Joe J. Volpe. After carefully considering Mr. Johnson’s timely
filed objections and making a de novo review of the record, I approve and adopt the Proposed
Findings and Recommended Disposition in all respects.
Accordingly, Defendants’ Motion for Summary Judgment (Doc. No. 180) is GRANTED.
Plaintiffs claims against Defendants Kelley and Brown are DISMISSED with prejudice, and this
case is DISMISSED.
I certify, pursuant to 28 U.S.C. § 1915(a)(3), that an in forma pauperis appeal from any
Order adopting these recommendations and the accompanying Judgment would not be taken in
good faith.
IT IS SO ORDERED, this 2nd day of March, 2021.

Billy Roy Wilson
UNITED STATES DISTRICT JUDGE

Case 5:19-cv-00242-BRW Document 194 Filed 02/09/21 Page lot 11

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
PLAINTIFF

MICHAEL ANDREW JOHNSON
ADC #110504
5:19-cv-00242-BRW-JJV

v.

DEFENDANTS

WENDY KELLEY, et al
PROPOSED FINDINGS AND RECOMMENDATIONS
INSTRUCTIONS

The following recommended disposition has been sent to United States District Judge Billy
Roy Wilson. Any party may serve and file written objections to this recommendation. Objections
should be specific and should include the factual or legal basis for the objection. If the objection
is to a factual finding, specifically identify that finding and the evidence that supports your
objection. Your objections must be received in the office of the United States District Court Clerk
no later than fourteen days from the date of the findings and recommendations. Failure to file
timely objections may result in waiver of the right to appeal questions of fact.
Mail your objections to:
Clerk, United States District Court
Eastern District of Arkansas
600 West Capitol Avenue, Suite A149
Little Rock, AR 72201-3325

Case 5:19-cv-00242-BRW Document 194 Filed 02/09/21 Page 2 of 11

DISPOSITION
I.

INTRODUCTION
Michael Andrew Johnson (“Plaintiff) sued former Arkansas Department of Correction

Director Wendy Kelley, Lieutenant Byron Brown,1 Security Officer Paroon, and Director’s
Assistants Jada Lawrence, Lyn Bennett, and Mindy Shell in their personal and official capacities.
(Doc. Nos. 2, 120.) Plaintiffs claims against Defendants Paroon, Lawrence, Bennett, and Shell
have been dismissed. (Doc. Nos. 25,67, 69.) Plaintiffs failure to protect claim against Defendants
Kelley and Brown remains pending.
Plaintiff alleges Defendants Kelley and Brown failed to protect him against an attack from
other inmates at the Wrightsville Unit2 of the ADC. (Doc. No. 102.) On November 27, 2018,
Plaintiff reported to Defendant Brown that he “was having Aryan problems.” (Doc. No. 120 at 1.)
In response, that same day Defendant Brown moved Plaintiff from 5 Barracks to 1 Barracks. {Id.)
On November 28,2018, inmates Faught, Geels, and Chism stabbed Plaintiff while he was sleeping.
(Doc. No. 120 at 1,15.) Plaintiff suffered nine stab wounds and required surgery. (Doc. No. 2 at
18.) Plaintiff also suffers from mental anguish and a mental disorder as a result of the attack.
(Doc. No. 120 at 2, 17.)
Plaintiff alleges “[Faught, Geels, and Chism]. . . were all part of Aryan gangs and are on
gang files.” (Doc. No. 2 at 18.) Plaintiff also alleges Faught was “a head gang member of the
group W.A.R” and was on Plaintiffs “enemy alert.” (Doc. No. 120 at 14.) Plaintiff asserts he

i

The Clerk of the Court is directed to change Defendant Brown’s name on the docket to Byron
Brown. (Doc. No. 37.)
2 Plaintiff is currently housed in the Maximum Security Unit of the ADC.
2

Case 5:19-cv-00242~BRW Document 194 Filed 02/09/21 Page 3 of 11

wrote Defendant Kelley numerous times “and advised her [he] had Aryan hits on [his] life.” (Id.
at 15.) Plaintiff seeks damages. (Id. at 2.)
Defendants Kelley and Brown (collectively “Defendants”) have filed a Motion for
Summary Judgment. (Doc. Nos. 180-182.) Plaintiff has responded (Doc. No. 184) and this matter
is ripe for a decision. After careful consideration, I recommend Defendants’ Motion be granted
and Plaintiffs claims be dismissed with prejudice.
II.

SUMMARY JUDGMENT STANDARD
Under Rule 56 of the Federal Rules of Civil Procedure, summary judgment is proper “if

the movant shows that there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a). A party asserting that a fact cannot be or
is genuinely disputed must support the assertion by citing to particular parts of materials in the
record, “including depositions, documents, electronically stored information, affidavits or
declarations, stipulations (including those made for purposes of the motion only), admissions,
interrogatory answers, or other materials[.]” Fed. R. Civ. P. 56(c)(1)(A).
When ruling on a motion for summary judgment, the court must view the evidence in a
light most favorable to the nonmoving party. Naucke v. City ofPark Hills, 284 F.3d 923, 927 (8th
Cir. 2002). The nonmoving party may not rely on allegations or denials, but must demonstrate the
existence of specific facts that create a genuine issue for trial. Mann v. Yarnell, 497 F.3d 822, 825
(8th Cir. 2007). The nonmoving party’s allegations must be supported by sufficient probative
evidence that would permit a finding in his favor on more than mere speculation, conjecture, or
fantasy. Id. (citations omitted). A dispute is genuine if the evidence is such that it could cause a
reasonable jury to return a verdict for either party; a fact is material if its resolution affects the
outcome of the case. Othman v. City of Country Club Hills, 671 F.3d 672, 675 (8th Cir. 2012).
3

Case 5:19-cv-00242-BRW Document 194 Filed 02/09/21 Page 4 of 11

Disputes that are not genuine or that are about facts that are not material will not preclude summary
judgment. Sitzes v. City of West Memphis, Ark, 606 F.3d 461, 465 (8th Cir. 2010).
III.

ANALYSIS
Defendants argue sovereign immunity bars Plaintiffs official capacity damages claims

against them. (Doc. No. 181.) Defendants further argue they are entitled to qualified immunity
on Plaintiffs personal capacity claims against them. (Id.) For the reasons set out below, I agree.
A.

Official Capacity Damages Claims

Plaintiff sued Defendants in the personal and official capacities. Plaintiffs § 1983 claims
against Defendants in their official capacities are the equivalent of claims against the State of
Arkansas. Plaintiffs official capacity damages claims are barred by Eleventh Amendment. Will
v. Michigan Dept, ofState Police, 491 U.S. 58, 71 (1989). Accordingly, Defendants are entitled
to summary judgment in connection with Plaintiffs official capacity damages claims.
B.

Qualified Immunity

Defendants maintain they are entitled to qualified immunity. (Doc. No. 181 at 19.)
Qualified immunity protects government officials who acted in an objectively reasonable manner
and shields an official from liability when his or her conduct does not violate “clearly established
statutory or constitutional rights of which a reasonable person would have known.” Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982). Qualified immunity is a question of law, not a question of
fact. McClendon v. Story Cty. Sheriffs Office, 403 F.3d 510, 515 (8th Cir. 2005). Thus, issues
concerning qualified immunity are appropriately resolved on summary judgment. See Mitchell v.
Forsyth, 472 U.S. 511, 526 (1985) (the privilege is “an immunity from suit rather than a mere
defense to liability; and like an absolute immunity, it is effectively lost if a case is erroneously
permitted to go to trial”).
4

Case 5:19-cv-00242-BRW Document 194 Filed 02/09/21 Page 5 of 11

To determine whether defendants are entitled to qualified immunity, courts generally
consider two questions: (1) whether the facts alleged or shown, construed in the light most
favorable to the plaintiff, establish a violation of a constitutional or statutory right; and (2) whether
that right was so clearly established that a reasonable official would have known that his or her
actions were unlawful. Pearson v. Callahan, 555 U.S. 223, 232 (2009); see also Saucier v. Katz,
533 U.S. 194, 201 (2001). Courts are “permitted to exercise their sound discretion in deciding
which of the two prongs of the qualified immunity analysis should be addressed first in light of
the circumstances in the particular case at hand.” Nelson v. Corr. Med. Servs., 583 F.3d 522, 528
(8th Cir. 2009) (quoting Pearson, 555 U.S. at 236). Defendants are entitled to qualified immunity
only if no reasonable fact finder could answer both questions in the affirmative. Id.
C.

Failure to Protect Claims

Plaintiff alleged Defendants failed to protect him from an attack by other inmates. A
failure to protect claim is composed of two elements. First, the claimant must demonstrate that his
conditions of incarceration posed a substantial risk of serious harm. Farmer v. Brennan, 511 U.S.
825, 834 (1994). Second, the claimant must demonstrate that the defendant prison official knew
of and disregarded the risk to his safety. Id. at 837. The second prong requires a finding that the
defendant was deliberately indifferent. See Whitson v. Stone County Jail, 602 F.3d 920, 923 (8th
Cir. 2010) (in analyzing failure to protect claims “the subjective inquiry regarding an official’s
state of mind is one of deliberate indifference to inmate health or safety.”) Deliberate indifference
is akin to criminal recklessness. See Olson v. Bloomberg, 339 F.3d 730, 736 (8th Cir. 2003).
1.

Defendant Kelley

Plaintiff maintains Defendants were aware of the risk to him from Faught, Geels, and
Chism. (Doc. No. 180-3 at 32:14-34:7.) Plaintiff, however, testified that neither Faught, Geels,
5

Case 5:19-cv-00242-BRW Document 194 Filed 02/09/21 Page 6 of 11

nor Chism were on Plaintiffs enemy alert list. {Id. at 53:8-54:14.) Plaintiff said he wrote to
Defendant Kelley about his “Aryan problems,” but did not specifically name Faught, Geels, and
Chism. {Id. at 55:17-56:15.) Plaintiff testified that there are five Aryan gangs in the ADC: Aryan
Brotherhood; Aryan Nation; White Aryan Resistance; New American Empire; and AC. {Id. at
25:21-26:15). It appears Plaintiff, who identifies himself as Aryan Brotherhood, felt threatened
by rival Aryan gangs. {Id. at 25:19-25:20).
Defendant Kelley attached Plaintiffs correspondence in support of her Motion. (Doc. No.
180-1.) The letters reveal:
•

On November 30, 2017, Plaintiff wrote Jada Lawrence, Defendant Kelley’s assistant, in
connection with parole, and Ms. Lawrence responded. {Id. at 7-8.)

•

Plaintiff wrote Ms. Lawrence again on January 15, 2018 from the Varner Unit regarding
concerns about an Inmater Carver; again Ms. Lawrence responded. {Id. at 9-10.)

•

On May 7, 2018, Plaintiff wrote Defendant Kelley from the Cummins Unit requesting to
be put in protective custody because other inmates were trying to stab him for informing
on Inmate Carver. {Id. at 11.) Ms. Lawrence responded to Plaintiffs letter, informing
Plaintiff that she sent a copy of the letter to Warden Straughn for his review. {Id. at 13.)

•

On June 4, 2018, Plaintiff again wrote Ms. Lawrence about Inmate Carver; Ms. Lawrence
responded. {Id. at 14-15.)

•

Plaintiff wrote Defendant Kelley on September 12, 2018 informing her that in 2013 he was
assaulted by Inmates McFarland, Morre, Shelley, and Hatcher, all “Aryan,” because he was
Aryan Brotherhood.3 (Doc. No. 180-1 at 16.) Plaintiff claimed all “Aryans” were against
him and he sought transfer from the Cummins Unit, and also brought up his class in

3 Plaintiff is a member of the Aryan Brotherhood. (Doc. No. 180-3 at 25:19-25:20).
6

Case 5:19-cv-00242-BRW Document 194 Filed 02/09/21 Page 7 of 11

connection with a parole issue. {Id. at 17.) Ms. Lawrence responded to the letter. {Id. at
18.)
•

Plaintiff wrote Defendant Kelley on September 17, 2018 explaining he needed Class II to
go up for parole. (Doc. No. 180-1 at 21.)

•

On October 2, 2018, Plaintiff wrote Defendant Kelley explaining he needs Class II to see
the Parole Board, and that he needed to get somewhere safe because of hits on Aryan
Brotherhood. {Id. at 19.) Plaintiff explained he had been attacked at Grimes, Varner,
Tucker, Brickeys, and Cummins, and sought a transfer. {Id.) Mindy Shell responded to
the letter. {Id. at 20.)

•

Plaintiff wrote Ms. Lawrence on October 14, 2018, from the Cummins Unit setting out
concerns for his safety in connection with “Aryan Shot Caller Michael Hatcher” and
referring to Inmate Carver. (Mat 22-23.) Lyn Bennett responded to the letter. (Mat 24.)

•

On October 16, 2018, Plaintiff wrote Defendant Kelley regarding parole. (Doc. No. 181
at 25.) Mindy Shell responded. {Id. at 26.)
As Plaintiff acknowledged, none of the correspondence in the record mentions Plaintiff felt

threatened by Inmates Geels, Faught, or Chism. And Defendant Kelley maintains she was not
aware of any problems between Plaintiff and Inmates Geels, Faught, or Chism before November
28,2019. {Id., at 6.)
Further, none of the correspondence establishes that Defendant Kelley personally ever
received or read Plaintiffs letters. And Plaintiffs testimony reveals he “felt like at that time Jada
Lawrence wasn’t giving [his] mail to Wendy Kelley.” (Doc. No. 180-3 at 98:3-98:13.) When
asked if he believed Wendy Kelley ever received any of Plaintiff s letters, he testified
I really don’t. No, I don’t. I personally don’t believe that at all. That’s my opinion.
No, I don’t. I mean, I wrote them to her, I wrote them to her assistant, because if
7

Case 5:19-cv-00242-BRW Document 194 Filed 02/09/21 Page 8 of 11

she did with her job title being director with all these serious letters, she would not
do that. There’s no way. You can’t make me believe a director just throwed me
off to get hurt like that. These are repeated letters.
{Id. at 98:25-99:7.)
In his Response to Defendants’ Motion, Plaintiff asserts he alerted Defendant Kelley that
he was “in fear of [his] life at all Units.” (Doc. No. 184 at 3.) Plaintiffs perceived threat came
not just from one gang, but from at least four other white supremacist groups. An inmate’s
complaints of “general fear for his safety” do not establish that a defendant “acted with deliberate
indifference by not placing him in protective custody.” Robinson v. Cavanaugh, 20 F.3d 892, 895
(8th Cir. 1994).
In his letters to Defendant Kelley, Plaintiff asked for protective custody and a transfer out
of Cummins. He was transferred from Cummins to Wrightsville in October 2018. (Doc. No. 1803 at 20:16-20:23.) Plaintiff testified he had been at Wrightsville less than 30 days when the attack
occurred. {Id.) While there was no protective custody at Wrightsville, Plaintiff was placed in a
Barracks in which he said he would feel safe before being moved there, after a threat in the
Barracks where he originally was housed. (Doc. No. 180-4 at 4.)
In Response to Defendants’ Motion, Plaintiff asserts Defendant Kelley knew of the danger
to him and failed to protect him. (Doc. No. 184.) But Plaintiff has not come forward with any
evidence establishing that Defendant Kelley was aware of a threat to his safety from Inmates Geels,
Fraught, or Chism before Plaintiff was attacked. And Plaintiff was transferred out of Cummins as
he requested. Based on the record before me, I cannot find that Defendant Kelley violated
Plaintiffs constitutional rights.

8

Case 5:19-cv-00242-BRW Document 194 Filed 02/09/21 Page 9 of 11

2.

Defendant Brown

Defendant Brown is also entitled to qualified immunity, but for different reasons.
Defendants argue, among other things, that Plaintiff was not attacked in an Aryan hit, but in
retaliation for Plaintiff reporting another inmate’s dealings in contraband. (Doc. No. 181 at 17.)
But Cody Brown, the other inmate, was also a white supremacist. (Doc. No. 180-3 at 33:21-34:17).
And Chism—a white supremacist and member of Aryan Brotherhood’s rival gang New American
Empire—was Brown’s friend. (Id. at 52:10-52:16.) Plaintiff believes Inmate Brown directed
Chism to carry out the attack on Plaintiff. (See Id. at 52:10-52:16.) And Plaintiff “had told
[Defendant] Brown [he] was concerned about Wendell Chism because he was friends with
[Inmate] Brown who [Plaintiff] had informed on.” (Id. at 54:15-19.)

I find the distinction

Defendants try to draw here too fine. Whether the attack was Aryan related remains a fact in
dispute. Aryan-related or not, Plaintiff testified that he mentioned a threat from Chism to
Defendant Brown. Defendant Brown denies Plaintiff mentioned an Aryan threat or threat from
Chism and points to Plaintiffs witness statement in support of his lack of knowledge. (Doc. No.
180-2.) In the statement, Plaintiff mentioned only Inmates Conley and Brown. (Id. at 4.) While
there remain contested facts regarding Defendant Brown’s knowledge of a risk to Plaintiff by
Inmate Chism, the dispute nonetheless does not preclude entry of summary judgment in Defendant
Brown’s favor.4
Even assuming Defendant Brown knew of the threat to Plaintiff from Chism, Defendant
Brown was not deliberately indifferent to that threat. Plaintiff says he requested protective
custody, but Defendant Brown “told [him] they do not have protective custody at the Wrightsville

4 Plaintiff testified that he did not inform Defendant Brown of a threat specifically from Geels or
Faught. (Doc. No. 180-3 at 54:20-55:6.)
9

Case 5:19-cv-00242-BRW Document 194 Filed 02/09/21 Page 10 of 11

Unit.” (Doc. No. 184 at 4.) Defendant Brown, however, moved Plaintiff from 5 Barracks to 1
Barracks the same day Plaintiff complained to Defendant Brown. (Doc. No. 180-2 at 1; Doc. No.
180-3 at 33:23-34:17.) 1 Barracks is in an entirely separate building than 5 Barracks. (Doc. No.
180-4 at 1.) Plaintiff explained he needed to be moved from 5 Barracks because “the entire
barracks was saying [he] was a snitch.” {Id. at 4.) And Plaintiff wrote that he felt safe in 1
Barracks. {Id.) Specifically, Plaintiff wrote “I’ll be fine in 1 Bks where I do isolation job. Several
people in kitchen where [sic] talking about me being a snitch -1 do not fear for my life.” {Id. at
4.) I note neither Faught, Geels, nor Chism were housed in 1 Barracks. (Doc. No. 120 at 1; Doc.
No. 191 at 28.)
Plaintiff testified that after he was placed in 1 Barracks he heard talk that there were “a
bunch of Aryans” in the 1 Barracks who were mad at him, but Plaintiff did not report what he
heard to Defendant Brown. (Doc. No. 180-3 at 37:7-38:24.) Rather, Plaintiff told a Sergeant
Evelyn Smith—not a party to this lawsuit—about the chatter. {Id.) There is no evidence in the
record to suggest Defendant Brown knew of any threat to Plaintiff after Plaintiff was moved to 1
Barracks. Under these circumstances, I find Defendant Brown was not deliberately indifferent to
a substantial risk of harm to Plaintiff.
At summary judgment, Plaintiff must support his allegations with evidence creating a
genuine issue of material fact. Wilson v. Smith, 821 F.3d 963, 970 (8th Cir. 2016) (allegations
must be substantiated with sufficient probative evidence); Bolderson v. City of Wentzville,
Missouri, 840 F.3d 982, 986-87 (8th Cir. 2016) (noting plaintiffs duty to meet proof with proof
in affirming summary judgment in defendant’s favor). Here, Plaintiff has not come forward with
proof creating a genuine issue of material fact that would preclude entry of summary judgment in

10

Case 5:19-cv-00242-BRW Document 194 Filed 02/09/21 Page 11 of 11

Defendants’ favor.5

Accordingly, Defendants Kelley and Brown are entitled to qualified

immunity. As such, I recommend summary judgment be entered in Defendants’ favor and
Plaintiffs claims against them be dismissed with prejudice.
IV.

CONCLUSION
IT IS, THEREFORE, RECOMMENDED that:
1.

Defendants’ Motion for Summary Judgment (Doc. No. 180) be GRANTED.

2.

Plaintiffs claims against Defendants Kelley and Brown be DISMISSED with

prejudice.
3.

This lawsuit be DISMISSED.

4.

The Court certify, pursuant to 28 U.S.C. § 1915(a)(3), that an in forma pauperis

appeal from any Order adopting these recommendations and the accompanying Judgment would
not be taken in good faith.
DATED this 9th day of February 2021.

JOBJ. \top>E
UNITED STATES MAGISTRATE JUDGE

5 In addition to Plaintiffs Response to Defendants’ Motion (Doc. No. 184), I considered Plaintiffs
various Notices filed after Defendants’ Motion (Doc. Nos. 185, 187, and 189). To the extent any
affidavit submitted by Plaintiff simply contradicts his earlier testimony—as opposed to clarifying
ambiguities or confusion in the testimony—I will not take the contradiction into consideration for
the purpose of determining if a genuine issue of material fact exists. See Taylor v. Cottrell, Inc.,
795 F.3d 813, 818 (8th Cir. 2015).
11

